U.S. Department of the Interior
Office of Inspector General




            AUDIT REPORT


      SALVAGE TIMBER PROGRAM,
     BUREAU OF LAND MANAGEMENT

              REPORT NO. 98-I-399
                 APRIL 1998
                                                                            C-I-N-BLM-00 l-97 _


             United States Department of the Interior
                            OFFICE OF INSPECTOR GENERAL
                                     Washington, D.C. 20240




                                  AUDIT REPORT


Memorandum                             Am      2 1998

To:       Director, Bureau of Land Management

From:     Robert J. Williams
          Acting Inspector General’

Subject: Audit Report on the Salvage Timber Program, Bureau of Land Management
         (No. 98-I-399  >


                                  INTRODUCTION

This report presents the results of our audit of the Bureau of Land Management’s Salvage
Timber Program.       The objective of the audit was to determine whether the Bureau
(1) conducted sales of blown-down diseased, or fire-damaged timber in an expedient manner;
(2) adequately pursued instances of timber thefl; and (3) used the Forest Ecosystem Health
and Recovery Fund as the Congress intended.

BACKGROUND

The Bureau of Land Management is responsible for managing, protecting, and improving
270 million acres of public land, including about 45 million acres of forest land in 11 western
states and Alaska. The Bureau administers an additional 2.4 million acres of forest land in
western Oregon, which include public domain lands, the revested Oregon and California
Railroad grant lands, and the reconveyed Coos Bay Wagon Road grant lands.

The term “salvage timber sale” is defined by the Bureau as a timber sale designed to remove
diseased or insect-infested trees; dead, damaged, or downed trees; or trees affected by fire or
imminently susceptible to disease or insect attack. Such sales may also include removal of
associated trees for purposes of ecosystem rehabilitation. According to Bureau officials, it
is important that salvage timber is offered for sale as soon as practicable to prevent additional
damage to adjacent green timber and also to prevent further deterioration of the damaged
timber. Additionally, drought conditions in the western states over the past several years have
significantly increased the occurrences and effects of forest wildfires and the subsequent death
of trees. The drought conditions have also contributed to the increased occurrences and
severity of insect outbreaks and resultant bug-killed timber, creating the need for more
salvage timber sales. As a result, damaged timber was placed as the highest priority in the
Bureau’s annual timber sales plans. However, the Bureau said that resources were not
adequate to expeditiously market these sales and that therefore a large backlog of salvage
timber projects was created.

In order to minimize the loss of merchantable volume’ and to improve forest conditions, the
Congress established the Forest Ecosystem Health and Recovery Fund on October 5, 1992.
The Fiscal Year 1993 Department of the Interior and Related Agency Appropriation Act
(Public Law 102-38 1) created this special fund in the U.S. Treasury, which was “to be derived
hereafter from the Federal share of moneys received from the disposal of salvage timber
prepared for sale from the lands under the jurisdiction of the Bureau of Land Management,
Department of the Interior.” This Act places requirements on the way the Bureau may spend
these mnds and also states that the formulas for the distribution of timber sales receipts
specified by law are not changed. Specifically, Public Law 102-38 1 states in part:

         The money in this fund shall be immediately available to the Bureau of Land
         Management without further appropriation, for the purposes of planning and
         preparing salvage timber for disposal, the administration of salvage timber
         sales, and subsequent site preparation and reforestation. Nothing in this
         provision shall alter the formulas currently in existence by law for the
         distribution of receipts for the applicable lands and timber resources.

In regard to existing laws, the formulas for distribution of timber sales receipts (including
salvage timber) from Oregon and California Railroad grant lands were established by Title II
of the Oregon and California Grant Lands Act of 1937. Under the Act, timber sales proceeds
were to be divided as follows: 50 percent to the Federal Government and 50 percent to the
18 western Oregon counties that contain Oregon and California Railroad grant lands.2 The
proceeds from timber sales on Coos Bay Wagon Road lands were to be divided as follows:
25 percent to the Federal Government and 75 percent to Coos and Douglas Counties. The
Federal share of timber receipts from public domain lands is 96 percent, with the remaining
4 percent going to the state where the salvage sale occurred.

In response to environmental concerns, including old growth forest issues and the presence
of the Northern Spotted Owl, restrictions on harvesting timber significantly decreased sales
on Government lands in western Oregon. As a result, the 18 counties’ shares of proceeds
from timber sales on the Oregon and California Railroad grant lands and on the Coos Bay
Wagon Road lands were substantially decreased. In order to stabilize the counties’ revenues,
appropriation language for fiscal years 1991, 1992, and 1993 included a provision for



‘Salvage timber of commercially acceptable quality.

3-h e fll
       o owing Oregon counties (there are no Cal&omia counties in the Oregon and California grant lands) receive
50 percent ofthe timber receipts, minimum payments, or special payments: Benton, Clackamas, Columbia, Coos,
Curry, Douglas, Jackson, Josephine, Klamath, Lane, Lincoln, Linn, Marion, Multnomah, Polk, Tillamook,
Washington, and Yamhill.

                                                       2
minimum payments to the Oregon and California counties, which would ensure that a
county’s payments would be equal to the annual average of the 5-year period between 1986
and 1990 (the payment could not exceed total receipts collected). In fiscal year 1993, the
Congress passed the Omnibus Budget Reconciliation Act of 1993 (Public Law 103-66)
which established special county payments for fiscal years 1994 through 2003 based on an
annually decreasing percentage of the 5-year average of 1986 through 1990. For example,
special payments to the Oregon and California counties started at $78.6 million in fiscal year
1994 and are gradually reduced to $53.6 million in fiscal year 2003. These “special
payments” temporarily replaced the counties’ share of actual timber receipts for the Oregon
and California Railroad grant lands and the Coos Bay Wagon Road lands. For fiscal years
1999 through 2003, the amount to be paid to the counties is the greater of the special
payment amount established in Public Law 103-66 or the counties’ 50 percent share of
timber sales proceeds.

SCOPE OF AUDIT

To accomplish our objective, our audit of the Salvage Timber Program included a review of
data relative to the initiation and final disposition of timber theft cases and a review of salvage
timber projects, including allocation of sales receipts and project expenditures to the Forest
Ecosystem Health and Recovery Fund.

Our audit was conducted in accordance with the “Government Auditing Standards,” issued
by the Comptroller General of the United States. Accordingly, we included such tests of
records and other auditing procedures that were considered necessary under the
circumstances. We requested information from 24 Bureau offices (Appendix 1) and discussed
Forest Ecosystem Health and Recovery Fund projects, expenditures, receipts, and/or policy
and procedures with personnel from these offices. Each field office contacted had used the
Fund to conduct salvage timber projects and had eliminated its respective backlog of salvage
projects. We also reviewed law enforcement records and obtained other information from
the Bureau’s Law Enforcement Office in Boise, Idaho, and from Special Agents in the
California and Utah State Offices.

As a part of our audit, we evaluated the system of internal controls related to salvage timber
sales and the Forest Ecosystem Health and Recovery Fund to the extent we considered
necessary.

We also reviewed the Department’s Accountability Report for fiscal year 1996, which
includes information required by the Federal Managers’ Financial Integrity Act of 1982, and
the Bureau’s annual assurance statement to determine whether any reported weaknesses were
within the objective and scope of our review. Neither the Accountability Report nor the
Bureau’s assurance statement addressed the Bureau’s Salvage Timber Program.




                                                3
PRIOR AUDIT COVERAGE

Neither the Office of Inspector General nor the General Accounting Office has issued any
audit reports during the past 5 years on the Bureau’s Salvage Timber Program or on the
Forest Ecosystem Health and Recovery Fund.

                              RESULTS OF AUDIT

We found that the Bureau of Land Management conducted salvage timber sales in a timely
manner and used the Forest Ecosystem Health and Recovery Fund to eliminate the backlog
of salvage timber projects. Furthermore, our review disclosed that timber thefts did not
appear to be a significant problem on lands administered by the Bureau. However, the
Bureau may have been inappropriately depositing both the counties’ and Federal shares of
salvage timber sales proceeds into the Fund rather than just the Federal share specified by the
Congress in Public Law 102-38 1. The counties’ share of proceeds for Oregon and California
Grants Lands was established at 50 percent of the sales receipts by the Oregon and California
Grant Lands Act of 1937. Bureau financial officials said that they believed that Public
Law 103-66, which provides for temporary special payments to the Oregon and California
Railroad grant lands counties except if the counties’ 50 percent share is greater than the
special payment, eliminated the counties’ shares of receipts and thereby authorized the Bureau
to keep 100 percent of the proceeds from salvage timber sales. Since the U.S. Treasury has
been making special payments to the counties in lieu of the counties’ 50 percent share of
actual receipts, we believe that the counties’ shares should be deposited into the U.S.
Treasury General Fund account to partially offset those special payments. As of August 3 1,
 1997, the Bureau had deposited $5.2 million of the counties’ shares of salvage timber sales
receipts from fiscal years 1994 through 1997 into the Forest Ecosystem Health and Recovery
Fund. Based on our review, the Bureau requested a Solicitor’s opinion on this matter on
May 28, 1997, in which it stated that its interpretation “of legislation [Public Law 103-661 is
that the . . . salvage timber receipts are entirely the Federal Government’s share during the
special payment years.”

The Forest Ecosystem Health and Recovery Fund has provided Bureau field offices with the
additional funding necessary to expedite salvage timber sales and reduce the backlogged
volume of salvage timber. Sales of salvage timber have increased from 10.4 million board feet
in 1993 to nearly 39 million board feet in 1997. During the 5 years since the implementation
of the Fund, the Bureau has sold over 141 million board feet of salvage timber and collected
receipts of about $23.5 million. We contacted 17 Bureau field offices, and none of those
field offices reported a backlog of salvage timber.

Our audit also disclosed that the number of timber thefts that occurred during fiscal years
1994 through 1996 was minimal. Data provided by the National Law Enforcement Office
showed that an average of 12 timber theft cases were opened per state per year. The average
loss per timber theft case was less than $1,400, based on the law enforcement officers’
estimates of the value of the timber or other forest products removed. During this period,
timber sales fluctuated between about $75 million and $100 million per year, and the loss


                                              4
from timber theft was estimated at about $100,000 per year.3 Furthermore, according to the
Bureau’s Uniform Crime Reporting System, about 50 percent of the timber theft cases
reported were cleared by arrest or other means. While law enforcement officials did not
provide statistics on the dollar value of cases cleared, they stated that they had had greater
success working and obtaining prosecutions on the larger dollar cases. They also stated that
many of the smaller cases involved theft of firewood or unauthorized tree cutting while roads
were being constructed and that it was often difficult to obtain prosecution on these cases.
Consequently, after reviewing all of the information provided by the Bureau, we concluded
that timber thefts did not appear to be a significant problem on Bureau-managed lands.

The Bureau’s accounting records showed that during fiscal years 1994 and 1995 (through
June 1995) the Oregon and California counties’ shares of salvage timber receipts were
deposited into the U.S. Treasury General Fund. However, on June 16, 1995, Bureau officials
decided that the counties’ share could be deposited into the Bureau’s Forest Ecosystem
Health and Recovery Fund rather than the U.S. Treasury General Fund.

We reviewed correspondence which indicated that during 1995 and 1996, Bureau officials
discussed this matter with the Department’s Budget Office, which requested a Solicitor’s
opinion as to whether the Bureau could transfer 100 percent of salvage timber receipts into
the Fund. The Solicitor did not provide a written opinion. However, correspondence dated
April 20, 1995, between the Department’s Budget Office and the Bureau stated:

         The Solicitor’s office thought that such an interpretation was reasonable, but
         suggested that BLM/DOI [Bureau of Land Management/Department of the
         Interior] consult with OMB [Office of Management and Budget] and the
         relevant Congressional committees before beginning to handle the receipts in
         that way.

Correspondence from the Department’s Budget Office also stated that the Bureau had not
consulted with either the Office of Management and Budget or the relevant Congressional
committees. Nevertheless, on June 16, 1995, the Bureau’s Chief, Division of Finance,
authorized the transfer of 100 percent of salvage timber receipts to the Fund for fiscal years
1994 through 2003 _ The memorandum authorizing the transfers indicated that the Solicitor
had provided verbal assurance that the Bureau’s interpretation of the law was reasonable.

The Congress initially appropriated $1 million for the Forest Ecosystem Health and Recovery
Fund. For fiscal years 1993 to 1997 (through July 3 1, 1997), salvage timber sales receipts
of $23.5 million had been deposited into the Fund. The Oregon and California and Coos Bay
Wagon Road counties’ shares of receipts deposited into the Fund totaled about $5.2 million
for fiscal years 1993 to 1997 (through August 3 1, 1997). Because the Bureau deposited all
salvage timber sales receipts into the Fund, the U.S. Treasury did not receive any revenue
from the sale of salvage timber, but it pays the counties a share of those receipts (Public Law



%otal estimated timber thefts for calendar years 1994,1995, and 1996 minus the cases cleared by arrest or other
means.

                                                       5
 103-66) through an appropriation based on the average sales receipts from fiscal years 1986
through 1990.

Public Law 102-38 1 authorized the Bureau to transfer only the Federal share of salvage
timber receipts to the Forest Ecosystem Health and Recovery Fund (which was 50 percent
of the sales receipts Tom Oregon and California lands and 25 percent from Coos Bay Wagon
Road lands). ‘Without specific authorization to deposit 100 percent of the salvage timber
receipts into the Fund, we believe that the $5.2 million counties’ share, which is 50 percent
of the salvage timber sales proceeds from Oregon and California Railroad grant lands (about
$5,150,000) and 75 percent of the salvage timber sales proceeds from Coos Bay Wagon Road
lands (about $SO,OOO),should be deposited into the General Fund of the U.S. Treasury.

During our exit conference, we recommended that the Bureau of Land Management obtain
a formal written opinion from the Solicitor’s Offke as to whether the Bureau can retain
 100 percent ofthe salvage timber sales receipts. The Bureau agreed, and on May 28, 1997,
the Director of the Bureau requested a Solicitor’s opinion on the issue of whether and/or
how much of the counties’ share of salvage timber receipts should be deposited into the
Forest Ecosystem Health and Recovery Fund.

Conclusion

On January 29, 1998, the Deputy Associate Solicitor, Division of Law, Office of the Solicitor,
responded to the Bureau’s request for an opinion (see Appendix 2) on the Bureau’s retention
of 100 percent of the salvage timber receipts, The Solicitor’s opinion stated:

       Although there is clearly ambiguity about how “Federal share” should be
       interpreted, we believe the structure for payment of the “special payment
       amount” in OBRA 93 [the 1993 Omnibus Budget Reconciliation Act] creates
       a sound basis for concluding that the BLM’s [bureau of Land Management’s]
       practice is correct.

       We conclude that through FY [fiscal year] 2003, in any year when the
       payments to the counties are made from a General Fund appropriation under
       OBRA 93 [ 1993 Omnibus Budget Reconciliation Act), all salvage timber fee
       receipts will be retained by the Federal government and deposited to the
       FEHRF [Forest Ecosystem Health and Recovery Fund]. Between FY 1999
       and 2003, if the payments are made from timber fee receipts under the pre-
       OBRA 93 formula, only the portion of such receipts retained by the Federal
       government should be deposited to the FEHRF.

Based on this opinion, we are not making any recommendations on this matter,




                                              6
Other Matters

During our survey, we noted inconsistencies in the way the Bureau’s forestry program
managers interpreted guidance relative to Forest Ecosystem Health and Recovery Fund
expenditures and deposits. Although these instances were not systemic, we believe that they
should be corrected.

        Forest Ecosystem Health and Recovery Fund Expenditures.            Regarding
expenditures of the Forest Ecosystem Health and Recovery Fund (Subactivity 5900), the
Bureau’s fiscal year 1996 Fund Coding Handbook states:

        [The Forest Ecosystem Health and Recovery Fund] includes all costs
        associated with the salvage of dead and dying timber on forest and woodland
        ecosystems on Public Domain Lands and on Oregon and California Railroad
        grant lands and Coos Bay Wagon Road lands in western Oregon. [It] includes
        maintenance and enhancement of the forest and woodlands ecosystems
        effected by fire, disease, insects etc. It includes only activities related to the
        sale of salvage timber and the subsequent site preparation, reforestation and
        maintenance of these sites. No urogram oversight or administrative costs
        should be coded to this account [Emphasis added.]

We believe that some expenditures which were charged to the Fund should have been charged
to the Bureau’s appropriated tinds budgeted for the forestry program as follows:

        - In 1996, the Oregon, Idaho, and California State Of-Iices charged $191,405,
$78,645, and $78, respectively, to the Fund for allocation of state office overhead, while the
Alaska, Arizona, Montana, New Mexico, and Wyoming State Offices did not charge the Fund
for overhead. In our opinion, charging overhead costs to the Fund directly conflicts with the
Handbook instructions that state, “No program oversight or administrative costs should be
coded to this account.”

         - The Arizona Strip District Office is spending an estimated $3.5 million of Fund
money on a research project to restore a ponderosa pine ecosystem to pre-European
settlement conditions. The project is being designed by a university and basically involves the
following: removing young trees, leaving the old growth trees, burning the underbrush, and
seeding grasses. In our opinion, the use of the Fund for this project is not consistent with
provisions of the Fund Coding Handbook because the area has not been affected by fire,
disease, or insects. In addition, this project does not appear to meet the definition of salvage
timber provided in Bureau Instruction Memorandum No. 95-132. Specifically, the
memorandum states:

        The term “salvage timber sale” is defined as a timber sale designed to remove
        diseased or insect-infested trees; dead, damaged or downed trees; or trees
        affected by fire or imminently susceptible to disease or insect attack. Such
        sales may also include removal of associated trees for purposes of ecosystem
        rehabilitation.

                                                7
Since this project does not appear to meet Bureau requirements, we believe that it should be
subject to the Bureau’s budget process and funded with appropriated forestry funds.

         Forest Ecosystem Health and Recovery Fund Deposits. Our review of deposits
made to the Fund (Subactivity 5900) during fiscal years 1995, 1996, and 1997 disclosed that
the Craig, Colorado, and the Worland and Rawlins, Wyoming, field offices posted firewood
and fencepost sales receipts to the Fund. During the Bureau’s 1996 Alternative Management
Control Review of the Fund, officials of the Prineville District Office stated that they would
like the authority to deposit firewood permit receipts into the Fund. We believe that the
Bureau should establish a policy as to whether the estimated $200,000 per year in firewood
and fencepost receipts from the public domain lands should be retained by the Bureau in the
Forest Ecosystem Health and Recovery Fund or deposited into the U.S. Treasury General
Fund.

During the summer of 1996, an interagency review team concluded that considerable variation
existed in the types of timber sales identified by field offices as meeting the definition of
salvage timber sales, ranging from sales of mostly dead trees to sales of mostly live trees.
The team, in its final report, stated that the broad definition of salvage timber was a significant
factor contributing to this situation. On October 8, 1996, the interagency team issued a
report which recommended that the Bureau and the U.S. Forest Service develop a common
definition of salvage timber which is within the limits of their underlying legislative authorities.
A March 4,1997, followup action plan developed by the interagency team recommended a
legislative proposal to address this issue. This proposal had not been submitted to the
Congress as of September 1, 1997. We believe that the Bureau of Land Management should
review these matters to ensure that the Forest Ecosystem Health and Recovery Fund is
administered effectively and efficiently.

Although the report did not contain any recommendations, the Director, Bureau of Land
Management, in a March 3 1, 1998, response to the preliminary final report (Appendix 3)
stated that because of our report, “Several items were brought to BLM’s [Bureau of Land
Management’s] attention which will strengthen the integrity of the program.”

The legislation, as amended, creating the Office of Inspector General requires semiannual
reporting to the Congress on all audit reports issued, actions taken to implement audit
recommendations, and identification of each significant recommendation on which corrective
action has not been taken.

We appreciate the assistance of Bureau personnel in the conduct of our audit.




                                                 8
                                                                                c




                                                                   APPENDIX 1

                     OFFICES CONTACTED OR VISITED

            OFFICES CONTACTED OR VISITED                   LOCATION

National Oflices
        Bureau of Land
          Management Budget OfIke                     Washington D.C.
        Bureau of Land
          Management Finance Office                   Washington D.C.
        Forest Ecosystem Health
          and Recovery Fund Program Coordinator       Boise, Idaho
        Forestry Program Office                       Washington, D.C.
        National Business Center*                     Lakewood, Colorado
        National Law Enforcement Office               Boise, Idaho
        Office of the Solicitor                       Washington, D.C.
Arizona
        Arizona State Office                          Phoenix, Arizona
        Arizona Strip District*                       St. George, Utah
California
        Eagle Lake Resource Area Office               Susanville, California
        Folsom Resource Area                          Folsom, California
Colorado
        Kremmling Resource Area                       Kremmling, Colorado
       Royal Gorge Resource Area Office               Canon City, Colorado
Idaho
        Idaho State Office                            Boise, Idaho                  -   .
        Upper Columbia/Salmon Cleat-water Districts   Coeur d’Alene, Idaho
Montana
        Butte District Office                         Butte, Montana
Oregon
        Oregon State Office                           Portland, Oregon
        Coos Bay District Offke                       North Bend, Oregon
        Eugene District Office                        Eugene, Oregon
        Klamath Falls Resource Area                   Klamath Falls, Oregon
        Medford District Office                       Medford, Oregon
        Roseburg District Office                      Roseburg, Oregon
Wyoming
       Worland District Office                        Worland, Wyoming
        Rawlins District office                       Rawlins, Wyoming




* Offices visited.




                                           9
                                                               APPENDIX 2 *
                                                               Page 1 of 6

               United States Department of the Interior
                                OF'F'XCEOFTH.ESOLJCITOR
                                   Wrshington,D.C204(0




Memorandum

To:          Director,    Bureau   of Land Management

From :       Deputy    Associate   Solicitor   - Division   of General   Law

Subject:     Federal    Share   of Salvage Timber   Receipts

In a memorandum of May‘28,   1997 regarding the handling of salvage
timber receipts from timber sales in Western Oregon from Oregon
and California   (O&C) and Coos Bay Wagon Road (CBWR) grant lands,
the Bureau of Land Management    (BLM) requested an opinion on
whether BIN has been correct in depositing all salvage timber
receipts from O&C and CBWR lands to the Forest Ecosystem Health
and Recovery Fund (FEHRF).    BLM has interpreted the statutory
language establishing   the FEHRF and the Omnibus Budget
Reconciliation  Act of 1993 as permitting this treatment of
salvage timber receipts.    The Office of Inspector General, in its
auditing of BLM's salvage timber program, has questioned this
interpretation.   We find that BLM's interpretation   of these laws
is reasonable and therefore conclude BLM's treatment of these
funds has been correct.



Prior to fiscal year 1994, in accordance with statutes enacted in
1937 and 1939,'(1937 and 1939 statutes), 18 counties in Western
Oregon (collectively, the counties) received as the result of
timber sales on O&C and CBWR grant lands in the counties a share
of timber harvest stumpage fee receipts through a permanent
indefinite appropriation  of these fee receipts.  These fee
receipts included stumpage fees from both so-called "green" or




      1 Title II of the Act of August 28, 1937, 50 Stat. 875,
chapter 876; 43 U.S.C. 1181f, and the Act of May 24, 1939, 53
Stat. 753, chapter 144; 43 U.S.C. 1181f-1 et seq.

                                        1




                                        10
                                                          APPENDIX    !?
                                                          Page 2 of 6




 healthy timber, and "salvage" timber;       i.e., timber that has been
 darnaged by fire, insects, or disease.

Under the 1937 and 1939 statutes, 50 percent of timber receipts
 from O&C grant lands were paid to O&C counties, and 75 percent of
timber receipts from CBWF? grant lands were paid to CBWR counties.
The remaining receipts were deposited in the General Fund of the
United States Treasury (Treasury).   In both fiscal years 1992 and
1993) Congress appropriated additional funds in the annual
Department of the Interior (DOI) appropriation acts to supplement
the counties' share of timber receipts because receipts from
timber harvest stumpage fees in those years were lower than
historical levels.   The lower level of receipts had reduced the
payments to the counties to a level below that which Congress
thought was adequate.

                 t of Fnrest Ecwvqtmth            &   RPCOV~     Fa

In the fiscal year 1993 DO1 appropriation acta, Congress
established the FEHRF as a new permanent indefinite appropriation
to BLM, using receipts from salvage timber sales.   The
appropriations language is as follows:

       "[There is] . . . established in the Treasury of the United
     States a special fund to be derived hereafter from the
     -al      sha    of moneys received from the disposal of
     salvage  timber prepared for sale from the lands under the
     jurisdiction of the Bureau of Land Management, Department of
     the Interior.    The money in this fund shall be immediately
     available to the Bureau of Land Management without further
     appropriation,   for the purposes of planning and preparing
     salvage timber for disposal, the administration of salvage
     timber sales, and subsequent site preparation and
     reforestation."

This permanent indefinite appropriation   supplements BLM's  annual
appropriations by several million dollars.    At the time of the
passage of the 1993 DO1 appropriation   act and its establishment
of FEHRF, the split of timber receipts between the counties and


     2
        FY 1993 Interior Appropriation  Act, Public Law 102-381,
106 Stat. 1374, 1376 (October 5, 1992).

                               -2        -




                                    11
                                                                    c


                                                         APPENDIX 2
                                                         Page 3 of 6


 Federal government was governed by the 1937 and 1939 statutes,
 which, as indicated above, provided for a SO/SO or 75/'25 split of
 all receipts between the counties and the Federal gov,c:=gent.



 Almost a year after the creation of the F'EXRF, Congress, in the
 1993 Omnibus Budget Reconciliation  Act3 (OBRA 931, changed for
 fiscal years 1994 through 2003 the arrangement for making the
 payments to the counties.   This new law changed both the method
 of determining the payment amounts and the source of funds for
 making the payments.

 Under OBRA 93, the payment to the counties is called the "special
 payment amount", and the formula for determining the amount is as
 follows:   the "special payment amount" equals the average level
 of receipts from fiscal.years 1986 through 1990 multiplied by a
 declining percentage, beginning with 85 percent for fiscal year
.1994) and declining by 3 percent per year through fiscal year
 2003.   From fiscal year 1999 through fiscal year 2003, the
 payments will be in accordance with the law in effect before OBRA
 93, or the "special payment amount" whichever is greater.
 Therefore, the payments to the counties, through fiscal year
 1998, and potentially in fiscal years 1999-2003, are no longer
 related to current levels of timber receipts, and the payments
 are made through an appropriation  from the General Fund of the
 Treasury, not from timber receipts.'


     3
        Omnibus Budget Reconciliation Act of 1993, Public
Law 103-66, 107 Stat. 682 (August 10, 1993).
     4
         The original OBRA 93 language was deficient in that it
did not identify a source of funds, one of the requirements of an
appropriation.    In an opinion dated October 5, 1994, Solicitor
Leshy stated that OBRA 93 had not repealed the authority to make
payments to the counties from timber receipts, but had attempted
to provide an alternative source from which the payments could be
made.   Therefore, because of the deficiency in OBRA 93, the
payment for fiscal year 1994 was made from timber receipts based
on the old formula.    Later, Congress amended OBRA 93 to remedy
                                                      (continued...)

                               -3    -




                                12
                                                          APPENDIXi
                                                          Page 4 of 6



 Beginning in fiscal year 1995, payments to the counties have been
 made with appropriations   from the Generai Fund, and BLM has
 deposited all "green", that is, non-saivage,   timber fee receipts
 to the General Fund.   All salvage timber fee receipts, except for
 a small amount from public domain lands, which were not affected
 by OBm   93, have been deposited to the FBHRF'.



Whether BLM's practice has been correct depends upon whether the
 "Federal share" is now 100 percent of salvage timber fee
receipts.   Therefore, you asked if the definition of "Federal
share" of salvage timber fee receipts refers to the percentage
split that existed at the time the FBBRF was established, or
whether the enactment of OBRA 93 changed the meaning of the term.
Put another way, the question is whether the Congress, in
creating the FEZRF (using the term "Federal share") and in
enacting OBRA 93, intended to appropriate to the BLM 50 or 25
percent of salvage timber receipts, or whether   Congress intended
to appropriate  whatever amount of receipts was not paid by the
Federal government to the counties6.


      ‘(. . .continued)
the deficiency     in the appropriations language by specificaliy
providing that the special payment would come from the General
Fund of the Treasury.      .-Public Law 103-443, 108 Stat. 4631..
     5   BLM has been depositing 100 percent of salvage timber
receipts to the FBHRF based on informal advice from the
Solicitor's  Office.  Memorandum dated June 16, 1995, to Team
Leader, Budget and Finance Team, WO-880, signed by Michael Kirby.
     6   The legislative history of the FY 1993 appropriations act
is not very illuminating on the question.     The Senate report
states, "The            from timber salvage receipts are to be
deposited in the 'Forest ecosystems health and recovery account'
. . .n , S. Rep. No. 102-345 at 12 (1993) (emphasis added),
indicating that fi    salvage timber receipts retained by the
Federal government should be deposited to the FISHRF. At the time
the report was written, however, there was no choice in the
                                                       (continued...)

                                -4    -




                                 13
                                                      APPENDIX‘2
                                                      Page 5 of 6




 Although there is clearly ambiguity about how '*Federal share"
 should be interpreted, we believe the structure for payment of
 the "special payment amount" in OBBA 93 creates a sound basis for
 concluding that BLM's practice is correct.   When Congress
 established in OBRA 93 that the counties would receive their
 "special payment amount" from the General Fund of the Treasury
rather than the timber receipts themselves, Congress intended
that for the years covered by OBRA 93, the salvage timber
receipts were not to be deposited for the benefit of the
counties.   Thus, under our interpretation, the counties have no
"share" of the salvage timber receipts for the years covered by
OBBA 93, with the result that all the receipts are the "Federal
share".   To conclude that the "Federal share" is not comprised of
all the salvage timber receipts would place the receipts that had
formerly been paid to the counties in a "limbo" status, and would
negate the philosophy underlying the enactment of OBRA 93.

We do not believe that references in 43 O.S.C. 5 118lf(c) and
1181f-4 (portions of the statutes creating the mechanism for
paying the counties percentages of timber fee receipts) to
maximum percentages of receipts available for appropriation for
the administration  of the O&C and CEWEt programs are in any way
dispositive of the question at issue.    When Congress used the
term "Federal share" in the FY 1993 DO1 appropriations   act rather
than referring to 43 U.S.C. §I 1181f and 1181f-1 or particular
percentages of salvage timber fee receipts it was appropriating,
it eliminated the upper limit of what the "Federal share" could
be.   Thus, when it enacted OBRA 93, Congress established the
special payment amount for a fixed period of years and, as
discussed above, increased the amounts of the "Federal share" to
100 percent.




      et... continued)
handling of those receipts.  The pre-OBFLA 93 statutory
distribution was required then, and depositing all salvage timber
receipts to the FENRF was clearly not authorized.   A fair reading
of this language is that it was addressing the Federal share of
timber receipts, which was at that time only a partial share of
the receipts.


                              - 5 -




                               14
I   :                                                                 APPENDIX 2
                                                                      Page 6 of 6




         We believe    this interpretation of "Federal share" to be
         reasonable    under all the circumstances preeented here.   w
                                                           467 U.S. 837




        Based on the above analysis, we conclude that through F'Y 2003, in
        any year when the payments to the counties are made from a
        General md    appropriation under OBRA 93, all salvage timber fee
        receipts will be retained by the Federal government and deposited
        to the FEHRF.   Between FY 1999 and FY 2003, if the payments are
        made from timber fee receipts under the pre-OBRA 93 formula, only
        the portion of such receipts retained by the Federal government
        should be deposited to the FEHRF.'

        Questions     on this opinion    should be directed     to Robert H. Mall on
        208-5216.



                                        /&J$i$5-szm
                                        Timothy    S. Elliott




             7
                OBRA 93 is silent about the period after FY 2003, with
        the result that the law applicable prior to OBRA 93 will be in
        effect. Nevertheless,  the manner of handling the salvage timber
        receipts would remain the same, that is, the portion of salvage
        receipts retained by the Federal government would be deposited to
        the FEHRF.

                                             -    6 -




                                             15
                                                                                APPENDIX-3


                United States Department                 of the Interior
                              BUREAU    OF LAND MANAGEMENT
                                       Washington, DC.20240

                                                                         In Reply Refer To:
                                    March 30,     1998                       5000 (230)




                                         Memorandum

To:           Acting Assistant Inspector General for Audits                G-j++
                                                             T&b             I-
ThrougdafqA     ssistant Secretary, Land and Minerals Management         MAR 31 I998

From:         Director, Bureau of Land Management

Subject:      Response to Preliminary Final Advisory Report, Salvage Timber Program,
              Bureau of Land Management, March 1998 (C-IN-BLM-001-97)

Following an in-depth review of the Bureau of Land Management’s (BLM) salvage timber
program, the report found no recommendations were necessary. The report found the Bureau
(1) conducted sales of salvage timber in an expedient manner; (2) adequately controlled the
theft of timber from lands administered by this agency; and (3) used the Forest Ecosystem
Health and Recovery Fund as Congress intended. This satisfied the objectives of the review.
The report concurred with the findings of our Solicitor’s opinion regarding the deposit of
receipts from the sale of salvage timber from the Oregon and California counties in western
Oregon.

I appreciate the cooperative and informative nature of this review. Several items were
brought to the BLM’s attention which will strengthen the integrity of the program. The BLM
personnel were encouraged to cooperate in every way and the report acknowledged their
assistance. Although a response is not required, I take this opportunity to thank you and your
employees for bringing this to a successful conclusion.




                                             16
                ILLEGAL OR WASTEFUL ACTMTIES
                    SHOULD BE REPORTED TO
             THE OFFICE OF INSPECTOR GENE=   BY:


Sending written documents    to:                                 calling:



                    Within the Continental United States

U.S. Department of the Interior                            Our 24-hour
Office of Inspector General                                Telephone HOTLINE
1849 C Street, N.W.                                        l-800-424-508 1 or
Mail Stop 5341                                             (202) 208-5300
Washington, D.C. 20240


                                                           TDD for hearing impaired
                                                           (202) 208-2420 or
                                                           l-800-354-0996


                   Outside the Continental United States


                                     Caribbean RePion

U.S. Department of the Interior                            (703) 235-9221
Office of Inspector General
Eastern Division - Investigations
1550 Wilson Boulevard
Suite 410
Arlington, Virginia 22209


                                    North Pacific Reeion

U.S. Department of the Interior                            (700) 550-7428 or
Office of Inspector General                                CoMhd g-01 1-671-472-7279
North Pacific Region
238 Archbishop F.C. FIores Street
Suite 807, PDN Building
Agana, Guam 96910
Toll Free Numbers:
 l-800-424-5081
 TDD l-800-354-0996        E
                           5
                           5
FI’S/Commercial Numbers:
  (202) 208-5300
  TDD (202) 208-2420



1849 C Street, N.W.
Mail Stop 5341
